<html>
<title> - UNITED STATES STANDING IN INTERNATIONAL ORGANIZATIONS</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                UNITED STATES STANDING IN INTERNATIONAL 
                                ORGANIZATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
   INTERNATIONAL DEVELOPMENT, INTERNATIONAL ORGANIZATIONS AND GLOBAL 
                        CORPORATE SOCIAL IMPACT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 23, 2021

                               __________

                           Serial No. 117-18

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                       or http://www.govinfo.gov                       
                       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
43-786 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                  GREGORY W. MEEKS, New York, Chairman
                  
 BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
ALBIO SIRES, New Jersey                  Member
GERALD E. CONNOLLY, Virginia	      CHRISTOPHER H. SMITH, New Jersey
THEODORE E. DEUTCH, Florida	      STEVE CHABOT, Ohio
KAREN BASS, California		      SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	      DARRELL ISSA, California
DAVID CICILLINE, Rhode Island	      ADAM KINZINGER, Illinois
AMI BERA, California		      LEE ZELDIN, New York
JOAQUIN CASTRO, Texas	              ANN WAGNER, Missouri
DINA TITUS, Nevada		      BRIAN MAST, Florida
TED LIEU, California		      BRIAN FITZPATRICK, Pennsylvania
SUSAN WILD, Pennsylvania	      KEN BUCK, Colorado
DEAN PHILLIPS, Minnesota	      TIM BURCHETT, Tennessee
ILHAN OMAR, Minnesota		      MARK GREEN, Tennessee
COLIN ALLRED, Texas		      ANDY BARR, Kentucky
ANDY LEVIN, Michigan		      GREG STEUBE, Florida
ABIGAIL SPANBERGER, Virginia	      DAN MEUSER, Pennsylvania
CHRISSY HOULAHAN, Pennsylvania	      AUGUST PFLUGER, Texas
TOM MALINOWSKI, New Jersey	      PETER MEIJER, Michigan
ANDY KIM, New Jersey	              NICOLE MALLIOTAKIS, New York
SARA JACOBS, California		      RONNY JACKSON, Texas
KATHY MANNING, North Carolina	      YOUNG KIM, California
JIM COSTA, California		      MARIA ELVIRA SALAZAR, Florida
JUAN VARGAS, California		      JOE WILSON, South Carolina
VICENTE GONZALEZ, Texas		      RON WRIGHT, Texas
BRAD SCHNEIDER, Illinois                 
                                     

                    Jason Steinbaum, Staff Director
               Brendan Shields, Republican Staff Director
                                 ------                                

Subcommittee on International Development, International Organizations 
                   and Global Corporate Social Impact

                    JOAQUIN CASTRO, Texas, Chairman

SARA JACOBS, California              NICOLE MALLIOTAKIS, New York, 
BRAD SHERMAN, California                 Ranking Member
ILHAN OMAR, Minnesota		     CHRISTOPHER SMITH, New Jersey
CHRISSY HOULAHAN, Pennsylvania	     DARRELL ISSA, California
ANDY KIM, New Jersey
                                    
                                                               
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Otero, The Honorable Maria, Former Under Secretary of State for 
  Civilian Security, Democracy, and Human Rights, Department of 
  State..........................................................     7
Hannum, Jordie, Executive Director, Better World Campaign........    15
McDougall, Gay J., Senior Fellow and Distinguished Scholar-in-
  Residence, Leitner Center for International Law and Justice/
  Center for Race, Law, and Justice, Fordham University School of 
  Law............................................................    25
Dugan, Hugh, Former Senior Director for International 
  Organization Affairs at the National Security Council..........    31

                                APPENDIX

Hearing Notice...................................................    57
Hearing Minutes..................................................    59
Hearing Attendance...............................................    60

 
         UNITED STATES STANDING IN INTERNATIONAL ORGANIZATIONS

                        Tuesday, March 23, 2021

                          House of Representatives,
         Subcommittee on International Development,
             International Organizations and Global
                           Corporate Social Impact,
                      Committee on Foreign Affairs,
                                                    Washington, DC.

    The subcommittee met, pursuant to notice, at 10:02 a.m., 
via Webex, Hon. Joaquin Castro (chairman of the subcommittee) 
presiding.
    Mr. Castro. The Subcommittee on International Development, 
International Organizations and Global Corporate Social Impact 
will come to order.
    Good morning, everyone. It is great to see all of our 
witnesses and our members here. Thank you to our witnesses for 
being here today for this hearing entitled, quote, ``United 
States Standing in International Organizations.''
    Without objection, the chair is authorized to declare a 
recess of the committee at any point, and all members will have 
5 days to submit statements, extraneous material, and questions 
for the record that are subject to the length limitation in the 
rules. To insert something into the record, please have your 
staff email the previously mentioned address or contact our 
full committee staff.
    Please keep your video function on at all times, even when 
you are not recognized by the chair. Members are responsible 
for muting and unmuting themselves, and please remember to mute 
yourself after you finish speaking. Consistent with remote 
committee proceedings of H.Res.8, staff will only mute members 
and witnesses, as appropriate, when they are not under 
recognition to eliminate background noise.
    I see that we have a quorum and will now recognize myself 
for opening remarks.
    Today we will examine America's standing in international 
organizations. This includes, first and foremost, the United 
Nations. It also includes others, like the Organization for 
Economic Cooperation and Development, and regional 
organizations, like the Organization for American States and 
the Inter-American Development Bank, and other key multilateral 
institutions.
    These institutions' very existence are an American 
accomplishment, an enduring legacy of the international order 
that American policymakers built out of the ashes of World War 
II and hope might prevent another destructive conflict.
    While the world has changed immensely since 1945, let us 
recognize that the U.N. and other international organizations 
have succeeded in their primary goal of avoiding a direct 
conflict between major powers. For 40 years, instead of 
fighting the Soviet Union in the North Atlantic for the Fulda 
Gap, we battled them in international organizations and the 
eyes of the world opinion. Crucially, the United States 
ultimately prevailed.
    Today it seems too many of us take for granted that the 
cold war did not turn hot, and policymakers have too often 
failed to communicate the importance of international 
organizations to maintaining peace around the world. 
Ironically, it has been the very success of international 
organizations that has allowed some to doubt their value.
    This attitude culminated with the Trump Administration. 
Former President Trump's hostility toward multilateralism, 
international organizations, and even many of our allies, is 
well-known and has had dire consequences for United States 
leadership.
    At the heart of our hearing today will be this question. 
How can our Nation recover its standing in international 
organizations after 4 years of unprecedented damage? The task 
of doing so is more essential than ever. From the COVID-19 
pandemic and climate change to migration and the refugee 
crisis, the challenges our Nation faces are global and will 
require global solutions.
    Former Defense Secretary Jim Mattis said about NATO, quote, 
``If we did not have NATO today, we would need to create it.'' 
The same can be said about the United Nations and other 
international organizations. If we did not have the U.N. today, 
we would need to create it.
    In this chaotic and challenging global moment, 
international organizations must be part of our approach. This 
is not to downplay the real flaws that many international 
organizations have. It is no secret that the very institutions 
which help define human rights have members who abuse them and 
are working to redefine the term ``human rights'' to meet their 
own ends.
    The actions of China and Russia have too often prevented 
the U.N. Security Council from being an effective body in 
addressing atrocities around the world, as we have seen again 
and again in Syria. These are real concerns with the United 
Nations and other international organizations, with Democrats 
and Republicans both making these arguments. Yet the solution 
cannot be for American to abandon them and cede control of them 
to our adversaries.
    As with the cold war, the new era where the United States 
finds itself competing with China and Russia for influence 
makes international organizations a first order issue.
    We must redouble our engagement and commitment to 
leadership. Wherever important global issues are being decided, 
America must have a seat at the table. Similarly, the United 
States must take up the battle of ideas in a court of global 
opinion.
    I commend President Biden for beginning that work, 
rejoining the World Health Organization and restoring funding 
to key U.N. agencies are crucial, commonsense moves that will 
increase American influence around the world.
    We here in Congress must continue that work and build a 
stronger foundation for American participation in international 
organizations. The stakes are simply too high for us to fail.
    With that, Ranking Member Malliotakis, please go ahead with 
your opening remarks.
    Ms. Malliotakis. Thank you, Chairman Castro, for calling 
this important hearing. I look forward to working with you and 
the rest of the committee members to conduct important 
oversight of our engagement with the United Nations and other 
international organizations.
    The creation of the subcommittee comes at a pivotal time. 
In recent years, we have seen the post-World War II 
international order challenged, as countries like China and 
Russia seek to rewrite the rules in ways that advance their 
nationalistic agendas and undermine State sovereignty in places 
like Ukraine and South China Sea.
    At times, there have been voices advocating for withdrawal 
of the United States from the international stage. I can 
certainly understand their frustration with the abuse of the 
United Nations system by malign actors.
    As we saw in the early stages of COVID-19, international 
organizations are not perfect. The World Health Organization 
routinely parroted Chinese Communist Party talking points that 
conflict with statements made by our own experts. The WHO's 
medical advice during the pandemic has routinely lagged behind 
scientific consensus.
    As an example, the WHO did not recommend the use of masks 
for the general public until June 5, 2020, 137 days after 
finally confirming that COVID-19 was spreading via human-to-
human transmission. In comparison, the Centers for Disease 
Control and Prevention here in the United States recommended 
masks in early April of last year.
    Despite widespread evidence of the CCP suppressing the 
genomic sequence of the virus that causes COVID-19, arresting 
doctors and journalists and censoring social media discussions 
of the outbreak within China, Director General Tedros praised 
the CCP for its transparency and setting a new standard for 
outbreak response.
    The WHO's embrace of CCP propaganda directly impacted how 
Americans view the virus. Lawrence Gostin, a professor of 
global health law at Georgetown University, who also provides 
technical assistance to the WHO said, ``We were deceived. 
Myself and other public health experts, based on what the World 
Health Organization and China were saying, reassured the public 
that this was not serious, that we could bring this under 
control. We were given a false sense of assurance.''
    However, I do not believe the correct response to these 
missteps by the WHO is the United States to withdraw. The 
United Nations, and international organizations more broadly, 
are not perfect. They are consensus bodies that reflect the 
countries who engage with them. As such, I believe the only way 
the United States can push back against the behavior and fight 
for true reform is by having a seat at the table.
    At the same time, the U.S. engagement should be tempered 
and clear-eyed. Recently, President Biden announced that the 
United States will be rejoining the U.N. Human Rights Council 
and running for a seat on the Council this fall.
    The U.N. Human Rights Council is a deeply flawed body, with 
a terrible track record of protecting dictatorship and despots 
and covering up the crimes of the world's worst human rights 
abusers.
    Current members of the Council include China, who is 
actively engaged in carrying out genocide against religious and 
ethnic majorities in Xinjiang; Russia, who has carried out 
nerve agent attacks on political opposition leaders, like 
Alexei Navalny; and Venezuela, when Maduro-backed forces have 
killed more than 20,000 people for resistance to authority; and 
even countries like Cuba that have a horrible record, decades 
of oppression of its own people.
    Despite this, the Council has focused its efforts on 
persecuting Israel, the only country permanently featured on 
the Council's agenda as its own item. I appreciated that 
Secretary Blinken raised some of these issues publicly when he 
addressed the Council last month. However, I believe reforms to 
address these issues should be a prerequisite for the U.S. 
seeking election to the Council, not a hopeful goal left to be 
achieved some time in the future.
    When the United States engages with the United Nations, its 
agencies, or other international organizations, we bring not 
only our values but also our financial contributions. The U.S. 
accounts for roughly one-quarter of both the regular and 
peacekeeping budgets of the U.N.
    Chairman Castro, I look forward to working with you to 
conduct rigorous oversight on U.S. engagement with the United 
Nations and other international organizations. We must be at 
the table, but we have a duty to the American taxpayer to 
ensure that our engagement with IOs is targeted, strategic, and 
maximizes the positive impact of the United States abroad.
    Again, I look forward to working with you and thank the 
witnesses for being here.
    Mr. Castro. [Speaking off microphone] First, the Honorable 
Maria Otero, former Under Secretary of State for Civilian 
Security, Democracy, and Human Rights, and I will also note a 
Latina trailblazer in American foreign policy, who was the 
first Latina under secretary at the State Department.
    Mr. Jordie Hannum, Executive Director of the Better World 
Campaign and a strong advocate for America's key role in the 
United Nations.
    Next we have Ms. Gay J. McDougall, a Senior Fellow and 
Distinguished Scholar-in-Residence at the Leitner Center for 
International Law and Justice, as well as the Center for Race, 
Law, and Justice at Fordham University School of Law, as well 
as the former vice chairperson of the U.N. Committee of the 
Elimination of Racial Discrimination.
    And, finally, Mr. Hugh Dugan, the former Senior Director 
for International Organization Affairs at the National Security 
Council, who was deeply involved in setting U.S. policy on 
issues during the last Administration, the Trump 
Administration.
    I want to thank each of you for being with us today to 
share your expertise and wisdom, and I will now recognize each 
of the witnesses for 5 minutes. And without objection, your 
prepared written statements will be made part of the record.
    And I will first call on Ms. Otero for her testimony. Ms. 
Otero, you have 5 minutes.

 STATEMENT OF MARIA OTERO, FORMER UNDER SECRETARY OF STATE FOR 
 CIVILIAN SECURITY, DEMOCRACY, AND HUMAN RIGHTS, DEPARTMENT OF 
                             STATE

    Ms. Otero. Thank you, Chairman Castro, and members of the 
committee. I want to thank you for this opportunity to speak 
with you today in this very important subcommittee on the issue 
of international organizations.
    I believe that to protect American prosperity, security, 
and health, to promote our values around the world, and guard 
our national security, we must pursue mutually beneficial 
partnerships with nations. And one way is through the 
multilateral organizations.
    Let me suggest three categories of multilaterals. Those 
focused on development in which member countries make 
contributions and are part of their governance. The World Bank 
and regional banks are an example. Those focused on the most 
vulnerable and exposed--refugees, populations in conflict 
areas, people that are trafficked, human rights defenders, 
women, and children. Many United Nations organizations fall 
into this category. And those whose member countries vote on 
specific issues, such as the Human Rights Council and the 
Organization of American States.
    My testimony focuses on the first category. Development of 
multilaterals support economic growth, a foundational goal. In 
other countries, as at home, prosperity is the bedrock on which 
all other strengths depend. Multilaterals help countries grow 
their economies and invest in the well-being of their people. 
More prosperous, stable, better-run societies are less likely 
to fray and either export their problems outward or create 
persistent challenges for our country.
    Development of multilaterals offers several comparative 
advantages. First, they invest in the private sectors, and they 
fortify free market economies. Their structure facilitates 
their deep engagement with the private sector. Your financial 
arms--the IFC and the World Bank, IDBInvest, and the Inter-
American Development Bank--channel billions of dollars in 
investment loans and guarantees to the private sector.
    Second, they leverage resources. In addition to members' 
contributions, multilaterals access billions of dollars on the 
global capital markets, which allow them to punch above their 
weight. Even the World Bank's IDA, which provides interest-free 
loans and grants to the poorest countries, issued its first IDA 
bond in 2017 and is raising billions of dollars from the 
capital markets to increase the funds going to the poorest 
countries.
    Growing these private sectors is firmly in line with our 
own interests. Our absence or lukewarm participation in 
multilateral organizations attracts other countries to fill 
that space. China has moved aggressively to provide long-term 
capital and uses its Belt and Road Initiative to increase its 
influence and to grow trade. When the U.S. pulls back, China 
cheers.
    Third, social inequity is a priority for multilaterals. 
Creating opportunities for skills and jobs for the least 
advantaged, including women, improves their well-being and 
keeps them from seeking a better life outside their countries. 
I note that migration to our border comes from the poorest, the 
most fragile countries in Central America, which offer very few 
opportunities, a situation which is aggravated by the region's 
violence and corruption.
    And, finally, multilaterals focus on urgent global issues 
and seek global solutions. Today's acute and pressing 
challenges are the COVID pandemic and climate change. The U.S. 
can be part of a global response, as we have been in the past.
    In closing, let me just draw briefly from my professional 
experience with multilaterals to illustrate their role. Tiny 
businesses known as microenterprises predominate in developing 
countries--women selling vegetables and street food, 
carpenters, shoemakers, metalworkers, fashioning their products 
with rudimentary tools and on their dirt floor workshops.
    These entrepreneurs need working capital for their 
business, but lacking collateral, they do not have access to 
bank loans. Loan sharks lend them 5 in the morning and collect 
6 in the evening. In the 1980's and 1990's, my organization, 
ACCION, and others experimented with making microenterprise 
loans and getting them repaid.
    We faced two challenges: meeting the high demand for 
capital among the poor and covering our costs of lending. We 
needed a sustainable model. We tested these innovations in 
several countries, and our efforts required financial support. 
Developing the right model took time.
    For more than 10 years, the Inter-American Development Bank 
provided ACCION with grants and soft loans, which allowed these 
transformative experiments in Latin America to reach fruition. 
Today, with IDB support--and let me say with USAID support as 
well--we have built commercial microfinance banks around the 
world that make millions of loans to businesses, including 
women, and provide a safe place for people to keep their small 
savings.
    These banks finance their activities, as banks normally do, 
without one penny of donor money. I sit on the board of 
BancoSol, a microfinance bank in Bolivia, which today has over 
one million clients--borrowers and savers--in a country of 11 
million people. Women in bowler hats and traditional indigenous 
dress enter through the bank's front door with confidence and 
dignity and with a Smartphone in hand.
    Their increased income improves their lives, livelihood, 
and educates their children. The multilaterals have the tools, 
the patience, and the vision to contribute to this type of 
success.
    Our active participation in multilaterals not only aligns 
with our highest values but also with our national interest. 
Standing by our funding commitments gives us a strong voice in 
allocating their considerable resources and in improving the 
quality of their performance.
    Thank you.
    [The prepared statement of Ms. Otero follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Castro. Thank you, Ms. Otero, for your testimony.
    I will now call on Mr. Hannum for his testimony, please. It 
looks like you are still muted there, Mr. Hannum. Yes. I get 
confused by switching--there you go.

 STATEMENT OF JORDIE HANNUM, EXECUTIVE DIRECTOR, BETTER WORLD 
                            CAMPAIGN

    Mr. Hannum. There we go. You would think a year in I would 
have it down. Sorry.
    But anyway, thank you, Chairman Castro, Ranking Member 
Malliotakis, and members of the subcommittee, for allowing me 
the opportunity to testify today.
    I work with the Better World Campaign, the advocacy arm of 
the United Nations Foundation, and I will use my time this 
morning to explain how U.S. standing in international 
organizations has suffered over the last 4 years, and why 
engagement and funding for the U.N. is in our country's best 
interest.
    Let me frame this conversation around the four Cs--
credibility, competition, cooperation, COVID-19. For the first 
C, in President Biden's maiden foreign policy speech, he spoke 
of renewing our role in global institutions and reclaiming our 
credibility and moral authority. Over the last 4 years, the 
U.S. downgraded its engagement with the U.N. system in several 
ways. This included underfunding, defending, or outright 
withdrawing from U.N. agencies and activities.
    Of particular concern, we currently owe more than $1 
billion for U.N. peacekeeping, which means we are underfunding 
troop-contributing countries like Bangladesh, Ghana, and 
Indonesia. These arrears have accrued over just the last 4 
years.
    During her Senate confirmation hearing, Ambassador Linda 
Thomas-Greenfield stated, and I quote, ``We need to pay our 
bills to have a seat at the table, and we need to make sure 
that we are there to push back on those who would have malign 
intentions at the U.N.'' And certainly for many ``malign 
intentions'' refer to China and Russia's actions.
    The reality is that both countries have used our massive 
arrears, our planned withdrawal from the WHO and Paris 
agreement, to say that we are not interested in helping 
countries solve the complex transnational challenges that 
confront us all. These actions have contributed to the 
reputation of the United States plummeting to its lowest point 
in 20 years.
    With respect to China, even though its own record is 
checkered to say the least, because they are investing more 
resources at the United Nations, engaging in U.N. bodies, 
active and bilateral developments for initiatives like Belt and 
Road, their influence is rising in multilateral organizations. 
There has not been a takeover by any stretch, but our prior 
absence meant there was no effective counterweight.
    In fact, the Trump Administration itself realized that its 
approach of withdrawal and withholding was not working when it 
appointed a special envoy to counter China's growing influence 
within international bodies. But it will take more than one 
person to fix the problem.
    In short, the opposite of withdrawal and withhold is engage 
and invest. This means no longer playing chess--no longer 
playing checkers while they play chess, i.e., we should 
increase support for the State Department and USAID, continue 
to rejoin key U.N. bodies that we walked away from, and it 
means paying our dues on time and paying back our arrears, 
because if China and Russia are really the greatest threat to 
America today, as many members of this committee have stated, 
then our approach should follow suit and we should counter them 
on every playing field that exists and marshal available 
resources.
    Of course, countering Russia and China at the U.N. would be 
most effective if the organization is fit for purpose. As 
former Secretary of State and U.S. Ambassador to the U.N. 
Madeleine Albright noted, and I quote, ``The failure to pay our 
old U.N. bills undermines our ability to recruit allies with 
the kind of structural reform that Congress demands.''
    For example, in 2013, when we were in good standing, the 
U.S. worked with the U.N. and allies to create the Human Rights 
up Front Initiative to ensure that all U.N. entities were 
prioritizing human rights in their field operations. It is one 
reason why the U.N. mobilized so quickly to protect civilians 
in South Sudan after the civil war broke out.
    But, in 2018, China and Russia successfully lobbied a range 
of other countries to disband the initiative, using our absence 
and U.S. budget cuts as a pretext. How is that in our interest 
to have it eliminated?
    Alternatively, we have seen the positive results when we 
work in collaboration with the United Nations, both in terms of 
management reform and in terms of realizing results on the 
ground. For example, in October, the U.N. World Food Programme, 
headed by former South Carolina Governor David Beasley, was 
awarded the Nobel Peace Prize, which I might add was the 
twelfth time a U.N. entity has received the prestigious prize.
    Of course, the U.S. is the most generous donor to WFP, but 
our contributions are also leveraged by other nations to 
tremendous effect. Cooperation will also be key in combating 
COVID-19. This can only be done in partnership with the 
international community and entities like the World Food 
Programme and World Health organization.
    As it stands, the WHO is at the center of a global 
cooperative effort to distribute COVID-19 vaccines equitably 
worldwide, which research has shown would, besides the global 
health and humanitarian rationale, benefit the U.S. 
economically more than any other nation. As more vaccines 
become available, most of humanity will get it through efforts 
backed by the WHO and international partners. This is what will 
ultimately end the pandemic, and this is why investing in the 
U.N. is so essential.
    Thank you for your time.
    [The prepared statement of Mr. Hannum follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Castro. Thank you, Mr. Hannum.
    I will now call on Ms. Gay McDougall for her testimony. Ms. 
McDougall.

  STATEMENT OF GAY McDOUGALL, SENIOR FELLOW AND DISTINGUISHED 
SCHOLAR-IN-RESIDENCE, LEITNER CENTER FOR INTERNATIONAL LAW AND 
 JUSTICE/CENTER FOR RACE, LAW, AND JUSTICE, FORDHAM UNIVERSITY 
                         SCHOOL OF LAW

    Ms. McDougall. Thank you, Mr. Chairman. I think we all 
agree that this is a moment of great urgency, both in our 
country and worldwide, and that these are challenges that 
cannot be solved without active U.S. engagement in 
international institutions.
    I commend the Biden Administration for reengaging with the 
U.N. Human Rights Council and taking steps to repair our very 
badly frayed reputation in those bodies. After all, the work of 
promoting and protecting human rights is a uniquely American 
contribution to the United Nations initiated by Eleanor 
Roosevelt. And while we have often failed to make it our 
overarching priority, the cause has rarely advanced without 
principled U.S. leadership.
    For more than 2 years, the United States has been absent 
from the Human Rights Council, and for an unprecedented period 
there have been no American experts on the human rights treaty 
bodies, and we cannot afford to not be in those rooms or to not 
be at those tables.
    When the United States is present, important work can get 
done. One excellent example is the Cross-Regional Joint 
statement on Racism led by the U.S. and joined by 155 nations 
which was submitted last week as part of the general debate 
during the 46th session of the Human Rights Council. Only U.S. 
diplomacy could have achieved that broad consensus document on 
fighting racism.
    The U.S. leverages its credibility most powerfully when it 
leads with honesty, humility, and commitment to principle. So 
as we reengage with the U.N.'s human rights systems, the U.S. 
must be honest and transparent about the failures of our human 
rights enforcement here at home. To deny the obvious would be 
self-defeating.
    And with honesty we must also be willing to submit to 
international scrutiny of our shortcomings in the same way that 
we seek to hold other countries accountable for their own 
failures. Without that mutual transparency and accountability, 
the U.N.'s system to protect the rights of people around the 
world is made into a charade.
    Our U.N. Ambassador displayed the impact of honesty so 
effectively last week in a speech to the United Nations General 
Assembly when she offered a moving personal reflection on her 
own life growing up in the segregated south and the deep 
structural racism that continues to undermine our democracy.
    When we lead with that kind of honesty and humility, as our 
Ambassador did last week, we set a tone and example for other 
countries to follow. Further, the project of promotion and 
protection of human rights globally fails if it becomes merely 
another tool in the struggles of geopolitics. Human rights 
protection must be conducted in a safe space in which 
principles of objectivity, fairness, impartiality, 
truthfulness, and good faith dominate. These are principles 
that should be upheld by all of the stakeholders.
    Let me conclude by saying that the United Nations today is 
under attack on many fronts. Too many governments, including 
the U.S., withhold or delay dues, leaving crucial U.N. offices 
crippled and unable to fulfill their missions. Too many 
governments attack the U.N.'s independent human rights experts 
for exposing difficult truths and block the U.N.'s institutions 
from addressing effectively the most desperate human rights 
issues in the world today.
    But with the support of Congress and the Biden 
Administration, I think there is an opportunity to safeguard 
these institutions for the survival of the United Nations. We 
cannot afford to let the U.N. fail.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. McDougall follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Castro. Thank you, Ms. McDougall, for your testimony.
    And our final witness, I will now call on Mr. Hugh Dugan 
for his testimony.
    Mr. Dugan.

      STATEMENT OF HUGH DUGAN, FORMER SENIOR DIRECTOR FOR 
  INTERNATIONAL ORGANIZATION AFFAIRS AT THE NATIONAL SECURITY 
                            COUNCIL

    Mr. Dugan. Thank you, Mr. Chairman. Thank you for your 
invitation to appear before the subcommittee, which is a 
privilege. It is a distinct pleasure to see Gay McDougall. I 
had the pleasure of serving as her campaign manager while a 
U.S. delegate to the United Nations, when she was successfully 
elected to the U.N. mission for the elimination of racial 
discrimination.
    I held one of the longest tenures on the U.S. delegation to 
the U.N.--26 years--followed by a professorship at Seton Hall 
University. I then resumed as Acting Special Presidential Envoy 
for Hostage Affairs, and most recently at the National Security 
Council as its Senior Director for International Organization 
Affairs.
    My career in this realm spanned six presidencies, 11 U.S. 
Ambassadors to the United Nations, and most importantly for 
today, 16 sessions of the House of Representatives. A highlight 
in my career was leading the U.N. reform program that brought 
together Senators Helms and Biden to fund our $1 billion U.S. 
arrears to the U.N. in the year 2000.
    It bears repeating for students of world affairs today what 
this subcommittee understands: that politics must end at the 
water's edge.
    Congress has much in common with an international 
organization. Both are membership-based, both seek to leverage 
their values into policies, and they appreciate the force 
multiplier effect of working together.
    The title of today's hearing is ``U.S. Standing in 
International Organizations.'' There our goal is to stand with 
others to promote shared ideals and to stand out as an example 
in pursuit of shared interests through cooperation. Otherwise, 
the U.S. risks merely sitting uncritically, expecting to be 
appreciated as some sort of diplomatic goodwill.
    If the U.S. is seen as indulging international bureaucrats, 
we will discover yet again that our pieces on the U.N. 
chessboard will not move themselves. In that game, each member 
State quietly calculates, does this international organization 
work? And, second, does it work for us and our shared 
interests?
    Our adversaries have supersized their efforts, not only to 
best us on issues, but to hijack the whole platform. Exhibit A, 
the World Health Organization, which is misnamed, frankly, 
instead of ``World'' read ``Chinese,'' instead of ``Health'' 
read ``Political,'' and as for ``Organization,'' it took over 1 
year to arrange a fact-finding trip to the Wuhan Laboratory 
while America produced three vaccines in warp speed time.
    Today our look at U.S. standing should not merely give 
itself over to foreign judgments on the United States. Rather, 
it needs to flag that our standing is only as good as the 
knowledge, skills, and abilities of Team USA in current times.
    The fact is, our best game against eroding U.S. standing in 
international organizations is a strong U.S. team on the field, 
U.S. delegates, U.S. citizens in the secretariats, and in 
leadership positions, such as the World Food Programme. This 
team has to be guided by dedicated D.C. policy leadership all 
having each other's backs.
    Alternatively, any game plan merely to take down our 
opponents is woeful. Alarmingly, I come to report to you that 
America's talent bench for mastering international organization 
politics has never been thinner. It needs emergency 
recruitment, training, and 24/7 policy guidance, not for 1945 
but for 2021. A major study on this issue will be released by 
the Center for Strategic and International Studies later this 
year.
    Regrettably, where I sit, the U.S. is abandoning leverage 
developed by the previous Administration. That it pressured for 
more accountability from U.N. programs in need of reform. An 
elaborate reform proposal shared widely by the U.S. with allies 
was ignored by WHO managers and apparently deep-sixed by the 
current Administration.
    Also, a major review of the Human Rights Commission is on 
the U.N. agenda this year. Whether reform is only possible if 
the U.S. is a member was disproven over many previous years of 
our membership in most world organizations. We shall see what 
the Administration plans, none of which has been put forward 
yet.
    Other policy reversals undertaken, such as resuming as a 
priority to the Joint Comprehensive Program of Action, likewise 
appear planless. The U.S. is serving this month as president of 
the Security Council, which would have provided every 
opportunity to set the agenda and work from the high ground.
    However, Vice President Harris last week opted to make her 
premier at the U.N. for a little than a victory lap and a pep 
talk at the Commission on the Status of Women. March was a 
missed opportunity for a Nikki Haley moment at the United 
Nations, one of focusing on U.N. accountability, instead of 
deleveraging hard-earned U.S. momentum there.
    In recent years, the Chinese Communist Party has surmised 
the U.N. as a supersized world trade organization opportunity, 
ripe for China's plundering, hijacking, and reprogramming to 
its authoritarian----
    Mr. Castro. Hello? Mr. Dugan, it looks like we may have 
lost you. I hope it is--I am assuming it is not just my 
internet. Let me see, we will take about 10 seconds to see if 
we can get him back. There you go.
    Mr. Dugan. All right. Am I back?
    Mr. Castro. You are, yes.
    Mr. Dugan. Thank you. I will resume, and I am almost 
finished.
    In recent years, the Chinese Communist Party has surmised 
the U.N. as a supersized world trade organization opportunity, 
ripe for China's plundering, hijacking, and reprogramming to 
its authoritarian, hegemonic ambitions. Throughout, Beijing is 
remaining Beijing. The rest of us are learning to suffer.
    China is now opting for open hostility in its dialog with 
us and others, as we saw this last weekend in Alaska. It is a 
wolf warrior diplomacy versus our U.N. Ambassador's self-styled 
gumbo diplomacy. Unless we strengthen our pots, is there any 
question who will be eating whose lunch in the U.N. cafeteria?
    In good form, the Biden Administration has said it would 
continue a tough-on-China stance. So job one for the U.S. 
mission to the U.N. is to organize like-minded States to face 
down the CCP's grab at the world order's dashboards and 
passwords.
    Another chore is the selection of the next U.N. Secretary 
General this year. A key test for Canada is managing the new 
moments of advancing authoritarianism upon the organization.
    The U.N. will need resilience to stem Russia's tactic to 
degrade and erode U.N. principles and even stronger resolve to 
counter China's game plan to superimpose its interests over 
those of the U.N. charter and eventually replace the spirit of 
openness with one of jealous authority.
    And, in closing, the U.S. has promoted U.S. values in 
force-multiplying ways at the U.N. and other international 
organizations. By standing and not sitting in international 
organizations, the U.S. must continue contributing to the 
liberal world order and further rise and champion others to 
defend it.
    Thank you very much.
    [The prepared statement of Mr. Dugan follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Castro. Thank you, Mr. Dugan, for your testimony.
    I will now recognize members for 5 minutes each. And 
pursuant to House Rules, all time yielded is for the purposes 
of questioning our witnesses.
    Because of the virtual format of this hearing, I will 
recognize members by committee seniority, alternating between 
majority and minority. And because it is a little harder to 
tell who is where on video, I may ask the staff to help me out.
    I can only call on you if you are present with your video 
on. So I know that there are a few members who have had their 
video off. If you all would please turn your video on now. If 
you miss your turn, please let our staff know, and we will 
circle back to you. If you seek recognition, you must unmute 
your microphone and address the chair verbally.
    And so I will now start our round of questioning by 
recognizing myself. So, you know, these issues that we have 
been talking about--and thank you, everybody, for your 
testimony. It was fascinating testimony from everyone. But the 
issues can seem sometimes arcane or esoteric, especially when 
we are discussing organizations that most people, including the 
American people, haven't heard of.
    And I would like to ask you to give us an example, and I 
will open it up to anyone, give us an example of how 
international organizations have had a concrete effect on our 
foreign policy, if we can give Americans a concrete example of 
that. And so, for example, has the election of a Chinese 
national to lead the International Telecommunication Union 
affected global policy toward 5G, cybersecurity, or emerging 
technologies? I welcome other examples as well.
    I point that one out because we have been talking about how 
engaged the United States should be in these international 
organizations, whether we should vie for leadership positions, 
for example. And so does not being at the leadership table, not 
being the leader, does that make a concrete difference? I open 
it up to the panel.
    Mr. Dugan. May I speak, please?
    Mr. Castro. Please.
    Mr. Dugan. Chairman, thank you very much for a very 
insightful question. Yes, it does matter who is in leadership 
positions throughout the organization, both among the 
delegations and certainly the leadership of the specialized 
agencies. As you have rightly described, the ITU is critically 
involved with monitoring and establishing norms and standards 
of telecommunications. 5G is central to that.
    There is an entire professional community that looks at 
this, too. The stakeholders throughout civil society are 
multiplying on this very issue. So while the ITU has a critical 
role to play, it must also learn how to involve all of these 
other non-State actors who have real skin in the game.
    So, yes, leadership in these organizations is going to have 
to be more accommodating of not just member States' 
participation but reaching out to the significant stakeholders 
and actors who in fact have a great deal of authority in these 
various functional areas, such as the ITU.
    I would like to point out, as Jordie mentioned earlier, the 
World Food Programme took the Nobel Prize this year, which was 
a remarkable accomplishment, for its work on stemming hunger, 
especially the use of hunger in war situations.
    The United States has always been the leading contributor; 
over 40 percent of the budget of the World Food Programme since 
its inception in 1960. And it has always had an American in its 
leadership position.
    The prior Administration placed the current leader, David 
Beasley there, and his efforts are what for the most part 
brought the attention of the Nobel Committee to recognize the 
World Food Programme.
    So to a great extent, the Nobel Prize Committee was 
recognizing America's ongoing contribution to a systemic 
problem of food shortage and the use of food as a weapon in the 
world over generations, and U.S. leadership that comes to the 
organization. The U.S. has always been--has always looked at 
these organizations that work well. And when they work well, we 
work well with them. When they do not work well, as major 
steward, we have to take the lead among our member State 
colleagues, to make them better.
    Mr. Castro. Thank you, Mr. Dugan. Let me see if the other--
I know some of the other panelists I think may want to chime in 
as well.
    Mr. Hannum. Yes. Mr. Chairman, if I could just say, I mean, 
you raise a great point on kind of specialized agencies. And 
this is a key area where we have seen China gaining influence. 
They now head four U.N. specialized agencies, and we head one. 
And one can say quite confidently--like you brought up food, 
but one can say quite confidently that the head of the FAO is 
there because we were disengaged and not aligned with our 
allies.
    In addition, we know that a couple of years ago that 
because of cuts to State Department, IO Bureau, that the number 
of people working on getting Americans at the U.N. was cut to 
zero. We had five, and we went to zero.
    China makes a concerted effort to get their diplomats 
positions, so we need to be engaged.
    We certainly talk about the importance of paying arrears. 
And this year is incredibly important. There are nine positions 
for the head of specialized agencies coming up this year, and 
five on the agency programs and funds. You talked about the 
World Food Programme. It is a great example. But this is a key 
year for us to be engaged and demonstrated in a variety of 
different ways, as they talked about. But, you know, staffing 
up State Department, staffing up IO, and certainly supporting 
payment of our dues.
    Mr. Castro. Well, thank you. I have only got 20 seconds 
left. I do not know if Ms. McDougall or Ms. Otero wanted to 
chime in real quick.
    Ms. Otero. I would just say quickly that, from the 
perspective of multilateral organizations, they really are a 
continuum to our bilateral assistance and allow us to access 
the billions of dollars the multilateral agencies have in order 
to be able to influence the way that those resources are spent.
    China, as others have mentioned, is in there trying to 
influence these multilaterals as well and ensuring that those 
resources go for areas and for factors that increase their 
global power.
    Mr. Castro. Thank you.
    Okay. I am going to start the round of questions, moving on 
from myself. We will go to Ranking Member Malliotakis, please. 
Please.
    Ms. Malliotakis. Thank you. Thank you, Chairman, for--you 
know, there are so many questions I actually have, and I would 
love to speak at some point offline with those who are 
testifying today. But I want to focus my--I guess my question 
on the U.N. Human Rights Council, since that is something that 
is imminent and going to be approaching us rather shortly.
    Is there somebody else speaking there?
    Mr. Castro. Yes.
    Ms. Malliotakis. Oh.
    Mr. Castro. Darrell, your microphone is on. Can the staff 
mute Darrell's microphone? All right. I think you are clear.
    Ms. Malliotakis. Tell Darrell I am taking a minute of his 
time.
    So, you know, I just want to focus, since the United 
Nations is obviously--this is something that is imminent, and 
the President has already declared that he wants to reenter the 
United Nations Human Rights Council, you know, my concern is 
obviously this is an organization that has given some of the 
worst offenders of human rights a platform, including Nicolas 
Maduro, who spoke at the very first meeting of the UNSC--I 
mean, U.N. Human Rights Council.
    My question I guess is, what could we be doing to try to 
push the narrative and push our agenda to try to ensure that we 
are spreading, you know, freedom, democracy around the world. 
We want to protect human rights of these individuals, some of 
whom are members, member countries represented on the Council. 
How can we use reentry as leverage? And what advice would you 
have to try to address some of these human right violators?
    Mr. Dugan. If I may answer? Thank you very much for the 
good question. As I mentioned in my statement, there is a 
scheduled review of the Human Rights Council this year. It is 
done every 5 years, and it is part of the establishment of the 
Council.
    So the U.S. has an opportunity in the General Assembly, 
which is the world's parliament, to raise these issues in a 
very serious way with a look at holding HRC more accountable 
and perhaps passing resolutions to amend its means of doing 
business and going forward.
    Thank you.
    Ms. Otero. One issue that I would raise related to the 
Human Rights Council would be when I was Under Secretary of 
State, I participated as a representative of the U.S. in the 
Human Rights Council. And I noted that in--even though we have 
members in the Human Rights Council that are authoritarian and 
human rights violators, there are many other countries that are 
not.
    And we can form alliances, we can work closely with them, 
we can help channel the agenda that gets sent, and we can 
diminish some of those issues that are counter to our beliefs. 
And that allows us to also have a way in which we can develop 
relationships with organizations and seek a mutual path with 
our leadership.
    And when I was there, I remember doing this very clearly on 
certain issues that kept coming up at the Council for a vote.
    Ms. McDougall. Yes. If I can just get in a word here. I was 
on mute. I did not realize that. You know, I think that the 
first thing we do is be there, and be there with a sense of 
openness to hear all arguments and honesty, as I said in my 
testimony, but where else to form the kind of coalitions that 
can can push back on authoritarian regimes?
    As I mentioned, this coalition that has just been formed by 
the Biden Administration at the HRC of 155 governments. That is 
quite, you know, record-setting. So we have got to be there, we 
have got to listen, we have got to form those coalitions, and 
we--we have more interference on the line. And good work can be 
done that way.
    Ms. Malliotakis. Thank you. If I had time--at some point, 
Mr. Dugan, I would love to speak to you more about the WHO. And 
I am also a Seton Hall grad, by the way, so I look forward to 
speaking to you again in the future.
    Mr. Castro. Actually, Ranking Member, do you want to take 
an extra minute? Because I know you got interrupted at the 
beginning.
    Ms. Malliotakis. Okay. Thank you. Yes, we can take 
Darrell's time. That is right.
    Just, Mr. Dugan, you know, you mentioned the World Health 
Organization. I agree with your comments regarding that China 
has basically taken over this organization. Any other insight 
you could share with us on what--how we should be handling WHO 
going forward?
    Mr. Dugan. Unfortunately, we agreed to rejoin and are 
paying $200 million right now without establishing any 
consequences for bad behavior in the past. We have squandered, 
this just last couple of weeks, the opportunity and the 
leverage that was created by the previous administration, which 
in fact had put forward a very detailed reform proposal on what 
WHO needed to do, and publicized it widely among many of our 
allies, many of whom adopted it for their own, only to find the 
WHO ignoring it and giving us the cold shoulder throughout.
    So the Administration gave the WHO plenty of notice and 
warning and incentive to come to the table. They did not--they, 
in fact, stalled by not even having a trip to Wuhan. I think 
what we need to do right now, not just as an organization, but 
with the pandemic, is to take our mind off of the focus on why 
this thing evolved where it did and realize that the pandemic, 
the spread of the pandemic, is what we really need to address.
    There is no doubt that it spread from Wuhan. Whether it 
originated in the lab or nearby is academic. It spread from 
Wuhan, and that is undeniable, and we need to trace that and 
get more accountability for that. Whether the WHO is the actor 
to do that, I think it has not shown itself capable and we need 
to rally other resources in the world to do that for us.
    Thank you.
    Mr. Hannum. If I could just weigh in quickly here, I know 
there is not much time, but just because our organization does 
a lot with WHO. I would just like to say briefly that WHO had 
made mistakes, which they acknowledged. They welcome reform. 
There is an independent panel right now.
    But I do think it is clear to say there was not support for 
withdrawal. In fact, there was almost unanimous opposition to 
it. When it was announced, all of the major public health 
associations were against the move. So was the Chamber of 
Commerce. Even the Heritage Foundation announced its 
opposition.
    Last July, Senate Foreign Relations Committee held a 
hearing on WHO and pandemic preparedness. All four witnesses--
the Republican choices and the Democratic choices--were 
unanimous in saying that the WHO's work was needed, of critical 
value, and there was no appetite for some alternative.
    Thank you.
    Mr. Castro. All right. Okay. Thank you.
    I will go next to the vice chair of our committee, Ms. Sara 
Jacobs.
    Ms. Jacobs. Thank you so much, Mr. Chair, and thank you to 
our witnesses for being here. I used to work in peacekeeping at 
the U.N. and at UNICEF, so I know the important work that the 
U.N. is doing, and I appreciate you talking about that with us 
today.
    Almost all of you mentioned in your testimony the need for 
reform, and while the U.N. is incredibly important, how 
important it is to make sure that we are reforming, so that it 
can actually address the challenges that we are facing. And I 
wanted to ask you about that.
    I think we have seen recent gridlock at the United Nations, 
for instance, just recently in the situation in Tigray, and it 
has become pretty difficult to envision the U.N. Security 
Council really being able to play the kind of constructive role 
in responding and mediating conflict that I think we all 
envisioned it to be.
    And so I think as we are in this new moment of U.S. global 
engagement, how can we seize on it for reform and maybe even 
move away from the traditional U.N. Security Council framework, 
which, as presently constructed, obviously has not done what we 
need it to in Tigray or in Sudan or even in helping mediate 
dialog in Syria and Afghanistan? And I would open it to any of 
the panelists for thoughts on that.
    Mr. Hannum. Congresswoman, one, thank you. Thank you for 
the question. And I would say a couple of things just in terms 
of reform. One, I do think it is important to say that the 
Secretary General, one of the reasons he kind of was chosen is 
that he has a track record on reform at UNHCR and made some 
real significant changes in terms of moving more operations 
into the field, reducing costs.
    Under his leadership, they have achieved gender parity, 
issued new whistleblower protections, pushed for annual 
budgets. And so they--he has made a couple of key reforms. I 
think it is also important to show that the record shows that 
when the U.S. is engaged, and that means kind of being a member 
in good standing, paying our dues, that we are much more able 
to achieve significant reforms. And I kind of talked about what 
former U.S.--U.N. Ambassador Madeleine Albright noted.
    But peacekeeping is a great example. A few years ago when 
the U.S. was engaged--this was during the Obama 
Administration--but they made real important changes in terms 
of field capabilities in turn that the missions would move more 
quickly, and also reducing costs, bringing the costs for a 
peacekeeper down by 18 percent, for example. But that was a 
time when we were fully engaged and paying up, and in general I 
think we are more likely to see significant changes.
    Human rights is another perfect example. This is a clear 
case where the U.S. absence, China and Russia are pushing a 
very different--very different narrative. And so we need to be 
engaged, and we need to be at the table, and then much more 
likely to advance our interests.
    Thanks.
    Mr. Dugan. May I also venture an answer? On reform, I 
think, as I mentioned in my statement, we need to reform our 
own capacity to manage, and we need to reform our bench of 
talent. We need to build expertise within the U.S. Government 
on U.N. matters.
    Over my 26 years or so at the Mission, I noticed a decline 
every year in our expertise. And it is not owned by any 
political party or personality. It is just a fact of life that 
we have not invested in how to manage effectively in 
multilateral organizations.
    It may be a function of our American reluctance to 
participate all together in foreign matters of these sorts, as 
George Washington warned us when he spoke. But the fact is that 
we need to invest in manpower that is not up there for 6 months 
or 2 years at a time and treats it as a trip abroad.
    The Russian ambassador--I am sorry, the Russian Foreign 
Minister Lavrov served three separate postings at New York in 
various stages of his career, up to Ambassador and now he is 
the foreign minister. That is true in many cases around the 
world where diplomats go on to become ministers, or they cycle 
out into other more important posts. And they have a keen 
understanding of a working ability about the U.N.'s properties 
and processes and politics, and our country has never invested 
in it that way.
    The State Department culture has never rewarded a 
multilateral officer's career development. It is seen as a 
place that was secondary, and we need to change our culture and 
invest in our manpower.
    Ms. Jacobs. Thank you. And my time has almost expired.
    Ms. McDougall. And if I can--sorry.
    Ms. Jacobs. Please. Quickly. Sorry, Mr. Chair.
    Ms. McDougall. If I can. I think it is really critical that 
the State Department and all of our faces abroad represent who 
we are as a Nation in terms of all of our diversity. And I 
think that that also highly improves our ability to function in 
very diverse circumstances and with what is a very diverse 
world, and to learn to set policies that are credible in those 
interactions.
    I know that there is a report--the Truman Report is about 
to come out on diversifying the personnel in State Department 
and upgrading the training, et cetera. But I think that is a 
critical point.
    And, again, I bring us back to our new Ambassador to the 
U.N. in New York and what is going to be her incredible ability 
to negotiate the many--not just cultures but the political 
values of different people around the world in a way that makes 
her even more effective than she would have been elsewhere.
    Ms. Jacobs. Thank you. And I will note our chair was a big 
part of that report and diversifying the State Department.
    Ms. McDougall. Yes.
    Ms. Jacobs. I have to give him credit for that, since I 
took extra time.
    Mr. Castro. Thank you all. All right.
    Let's go to Ms. Tenney----
    Ms. Tenney. Thank you, Mr. Chairman.
    Mr. Castro [continuing]. For her questions.
    Ms. Tenney. Thank you. It is a honor to serve with you, and 
thank you again for your work with me in helping the Rohingya 
people in Myanmar and Burma a couple of congresses ago. We did 
a special orders, and I am grateful to you for continuing to 
recognize that terrible situation.
    I have a district that is home to 4,000 Burmese refugees 
who are very active in the terrible situation going on in Burma 
with the military coup. So I thank you, and I appreciate the 
opportunity.
    Thank the ranking member for her questions. I think they 
are vitally important, to talk about the Human Rights Council 
and why the Biden Administration did not leverage its ability 
to get back in the Council by helping us on the American side.
    And also, thank you to the witnesses for your service and 
for being here in this important meeting.
    I guess a couple of questions have been addressed. I would 
like to talk a little bit--maybe, Mr. Dugan, since you have so 
much broad experience, and I do appreciate your comments--I was 
a former employee with the Yugoslav Consulate which existed 
many years ago, worked a lot with the mission to the U.N. 
through Yugoslavia. And so I got to see firsthand just how it 
works from another perspective, since I worked for a foreign 
consulate.
    But I just have a question about the value of the U.N. and 
how you view it. I mean, is, in your opinion, the United 
Nations a values-neutral institution? Or does it or should it 
stand for things like freedom and human rights? And do you 
believe China's growth poses a direct threat to the rules-based 
liberal order that underpins the U.N. system? And if you could 
comment on that, I would really appreciate it.
    Mr. Dugan. Thank you very much for your very thoughtful 
question. When we talk about U.N. reform, thankfully, nobody 
talks about reforming the U.N. charter. It stands as a model of 
principle, of purpose, of respect for freedom around the world, 
and for the promotion of prosperity, peace and security, and 
human rights.
    So, thankfully, the core principles of the U.N. are not in 
question. It is the manipulation of those principles which we 
have to worry about. And, once again, China has invested 
enormously since about--for about 15 or 20 years now in the 
U.N. It always ignored the U.N. It was afraid of the U.N. 
buying in too much and then having to let the U.N. into China 
to look at some other things that China does that it does not 
want the world to see.
    So it is always a very--I am against any type of 
intervention, and even though the intervention would reveal 
things such as you found with the Burmese situation, abuse of 
human rights, et cetera.
    So it is the manipulation of the charter, of the 
organization, and I refer you to almost the hijacking of the 
moral authority of this organization branded by China going 
forward that is of most concern to me.
    So, again, we need to develop our skillset. We need to be 
as bright and as hardworking and take the advantages that are 
due us up there. Congress has a special role in managing 
oversight in U.N. budget matters, since we are still the major 
contributor.
    Thank you.
    Ms. Tenney. Would you say that that--well, and then toward 
that, you know, the U.N. specialized agencies, you know, the 
United States, Britain, and France combined only lead four, yet 
China--the Chinese Communist Party actually leads four itself. 
And would you say that is the result of manipulation in the 
United Nations, or is that something that they achieved, you 
know, by some kind of Democratic principle to get there in that 
position?
    Mr. Dugan. Well, to be brief, they play by the rules and 
they play very well and very hard. As I said, they really did 
not give the U.N. much notion until about 15 or 20 years ago. 
So they have grown into their skin. They have an appropriate 
role. They are a large country. They make a big contribution. 
They represent millions and millions of people.
    So, yes, they are playing the game better and harder than 
we are; fairly, yes, by the letter, but not by the spirit.
    Ms. Tenney. Well, what you would you suggest we do as a 
nation to--sorry about that. I lost you. What would you say we 
do as a nation to combat that and to get in the game and to be 
the leader? Since we are supposed to be the beacon of freedom 
around the world to hold that order. What would your 
suggestion--I only have 40 seconds left, but I know Ms. 
McDougall wants to comment. But it is up to the chairman, so 
please comment if you will.
    Thank you.
    Ms. McDougall. Well, I take a bit--I am sorry.
    Mr. Dugan. Go ahead.
    Ms. McDougall. I am sorry.
    Ms. Tenney. I would love to hear from you both. It is up to 
the chairman.
    Mr. Castro. Please go ahead, both of you.
    Ms. McDougall. Go ahead, Mr. Dugan.
    Mr. Dugan. I just wanted to say that the previous 
administration established an office in the State Department 
called U.N. Integrity, which is--which has the writ of trying 
to address exactly what you are describing. It is an office 
that needs to be a bureau, and perhaps soon, as departments in 
the U.S. Government. We need to develop more resources and 
expertise, as I have mentioned a few times now, to quell the 
onslaught of authoritarian overtake of our liberal 
international order.
    Ms. Tenney. Thank you.
    Ms. McDougall, I think you----
    Ms. McDougall. Yes. I would just say that in terms--in 
terms of the human rights area, yes, you know, there are 
governments that have consistently put forward their views 
about human rights being culturally based and relative to 
various--to the voices of our colleagues. But they have always 
consistently been pushed back on those views by, you know, 
human rights bodies and individuals.
    And, you know, to the extent that there is concern about 
China and what violations in human rights have been done in 
Wuhan--I am sorry, in Xinjiang to the Uighur community, is the 
CERD--the committee that I sit on--that called that out, if you 
will, on the international stage and started the global 
publicity about it and condemnation about it.
    So there is as much pushback as there is, you know, 
positions being continuously put forward from their point of 
view. What we have got to maintain is that we have got a 
principle to push back that is, you know, in those rooms, 
sitting in those seats.
    Ms. Tenney. So you agree that--with Mr. Dugan that we could 
have an experienced, dedicated institutional voice in there to 
make sure that China is held accountable on human rights and 
other issues?
    Ms. McDougall. Absolutely. In this particular case, Mr. 
Dugan helped to run the campaign. They need that voice in that 
room in that seat to call China out about what was happening to 
the Uighurs.
    Ms. Tenney. Thank you so much. I know my time has expired. 
I really appreciate all of you.
    Mr. Castro. And Ms. Otero had something she wanted to add. 
And, you know, we have got a little bit of time here because, 
you know, we have time.
    Ms. Otero. Thank you, Mr. Chair. Just a very brief addition 
to this. I think it is really important to recognize that China 
is making the case that their system works better than a 
democratic system that is based on a market economy.
    This is enormously important. They are being vocal about 
that, and it is basically an argument that they are putting 
before the world and that they are using through agencies like 
the U.N. Our role is to be at that table and to argue that our 
system, our democratic values, the values of the United Nations 
charter are the ones that we must uphold.
    And this is an issue that spans many countries and the 
world. And so our effort to be able to form those alliances and 
create those coalitions and create what you would call 
situations of strength within the U.N. is one way in which we 
can really push back in not only a crucial way, but I would 
even say in an urgent way.
    Ms. Tenney. Thank you. Great. I appreciate that.
    Mr. Castro. All right. Representative Tenney asked the most 
popular question.
    Ms. Tenney. Thank you.
    [Laughter.]
    Mr. Castro. All right. We are going to go now to 
Representative Houlahan.
    Ms. Houlahan. Thank you, Chairman. And my question is 
actually for Ms. Otero and Mr. Hannum.
    I want to bring us back to 2017 when the United States 
cutoff funding for the UNFPA, the United Nations Population 
Fund, which of course supports reproductive health for women 
and girls around the world, along with implementing programs to 
help prevent child marriage, gender-based violence programs, 
female genital mutilation.
    I was hoping if we could start with Ms. Otero, if you could 
describe the impact that this has had on the UNFPA and its 
ability to protect the health of women and girls around the 
world, as well as against fighting practices like female 
genital mutilation and child marriage.
    Ms. Otero. Thank you for that question, a very important 
one, and one that I have worked in personally in my career. 
There is no question that the UNFPA works on the ground helping 
create the capacity of even the traditional birth attendants in 
Africa to be able to deliver maternal health, to deliver the 
kind of support that children need, in countries where 
malnutrition and lack of access to health is so prevalent.
    If our commitment is really to help this vulnerable 
population, especially women, and especially address women's 
not only health but also their ability because they are in good 
health, to be able to be educated and to be able to participate 
in their societies, then we really are not living up to the 
values that we propose.
    There is no question that some of the practices that are 
imposed on young girls and on women, like genital mutilation, 
in fact, more and more countries are seen as very problematic 
and very unacceptable, and it is through these institutions 
that we are able to move those arguments forward to instruct 
people to help educate.
    So cutting those resources directly affects the way which 
women around the world live, especially those that are among 
the poorest on the plant.
    Ms. Houlahan. Thank you, Ms. Otero.
    Mr. Hannum, would you be able to add any more color to 
this?
    Mr. Hannum. Yes. Let me just make three quick points. One, 
I think it is important just to again stress, you know, as you 
noted, that UNFPA as an organization, you know, seeks to help 
women safely deliver children each day.
    So as an example, in the large Za'atri Refugee Camp in 
Jordan, which I have been to, but UNFPA ran the maternity ward 
over a period of a few years. Ten thousand children were born, 
you know, without one maternal death. It is remarkable, and 
that is a program they used--the U.S. used to support but 
stopped.
    And actually, to put a finer point on that, it used to be 
when a new child was born, there would be a little sticker on 
the bassinet with the U.S. flag. You know, and think about what 
a lasting image that was for a new mother. And then the Trump 
Administration revoked our funding and, you know, they removed 
those stickers, so that is just one example of their work.
    You asked about impact of cuts. Let's look quickly at Yemen 
and Venezuela, obviously areas Congress has been focused on. 
But before 2017, the U.S. had been the second largest donor for 
UNFPA's emergency response there. The funding was used to help 
mothers access health care, supports violence, gender-based 
violence.
    In 2019, after another year of Trump Administration 
withholdings, this fund ran out of money in the middle of the 
year. And it is in places like these that, you know, UNFPA is 
leading the effort. It is not viable to switch to some other 
U.N. entity or other partners.
    And then, finally, just in terms of child marriage, female 
genital mutilation, you know, one can look at Central Sahel. 
Right now violence between armed groups has forced over 100 
health centers to close, and this disruption has been 
compounded by COVID-19.
    And as it stands, UNFPA's humanitarian operations there 
have only received 28 percent of 27 million that is needed for 
humanitarian assistance. And this is a region where 90 percent 
of women or girls have undergone female genital mutilation in 
Niger, which I have been to, about 75 percent of girls were 
married before age 18.
    So it is--you know, our resources could have made a 
difference, and so we would certainly welcome the decision to 
restore funding because it is desperately needed.
    Ms. Houlahan. Yes. And I look forward to reintroduction of 
legislation to allow and support that as well.
    And I know I only have 20 seconds, Mr. Chair. Am I able to 
ask one more question? Okay. Thank you.
    Mr. Castro. Of course.
    Ms. Houlahan. Thank you. And this is for Mr. Hannum as well 
regarding U.N. peacekeeping operations and the role that, of 
course, they play in stabilizing conflict zones.
    My specific interest is in women and what role and what 
else can be done with the U.N. to better integrate women into 
peacekeeping forces, and how can we, as a Nation, be helpful in 
supporting those initiatives and efforts and reforms.
    Mr. Hannum. Thank you. Yes. So, one, I would just say in 
peacekeeping in general, I do think it is important to know 
because there is a lot of talk, understandably, on Capitol Hill 
about challenges with peacekeeping. But it is important to 
remember that we now have two decades of data that shows that 
peacekeeping works. It saves lives and shortens conflicts.
    Across the board, you know, within peacekeeping operations 
in countries, the United Nations, there needs to be more, you 
know, women engaged. And this is something the U.S. called for 
in the Women, Peace, and Security Act, and I will say the U.N. 
is actually ahead of some other nations, chiefly the United 
States, in terms of having women engage. And there is data to 
show what that means. Women troops often are able to talk more 
with kind of local community, get information.
    So you have seen examples, and Liberia is a good example. 
We have been there, and a number of kind of women contingents, 
battalions, which make an important difference. But this needs 
to be increased because, again, the data shows the important 
benefits that come from it. And I think the Women, Peace, and 
the Security Act, which Congress passed, there needs to be an 
effort using that to increase the numbers, both here and within 
U.N. missions.
    Ms. Otero. If you permit me to add----
    Ms. Houlahan. Yes, ma'am.
    Ms. Otero [continuing]. Mr. Chair, I would only just focus 
on the fact that in areas of conflict, women, through gender-
based violence, suffer the most. Raping women is a way of 
acquiring that territory, and this happens in all of the areas 
of conflict. I have visited and met with women in the Republic 
Congo, in areas where they can attest to not only this 
happening outside of the refugee camps where there would be a 
conflict, but also all around in the areas of conflict.
    So women are not only important as security and 
peacekeeping force part of that effort, but they are also the 
ones that are suffering the most. And gender-based violence is 
something that we absolutely have got to address in the 
strongest of ways through these institutions.
    Thank you.
    Mr. Castro. All right. I see----
    Ms. Houlahan. Thank you. I yield back.
    Mr. Castro. Oh, yes. Thank you, Ms. Houlahan.
    I see that Representative Issa is on, but his video is not 
on. And so I will wait for his video to come on before I call 
on him.
    In the meantime, let's start another quick second round. 
And, you know, every time we do a second round--if you have a 
question, please feel free to ask it. If you do not have a 
question, do not worry. Sometimes I have been on the dais and 
they say, ``Oh, we are going to do a second round,'' and then 
you feel like ``I have got to ask something.'' You know, if you 
have a question, you know, please, a question or two, feel 
free. If not, it is Okay. All right?
    But let me start with mine. And, again, when Darrell comes 
on, I will jump to him. All right?
    So I want to start with Ms. McDougall because I know that 
you work squarely on these issues. I want to ask a question 
about how we can use the United Nations and other international 
organizations to combat a lot of the challenges that we see 
here domestically. And chief among those, for example, is 
structural systemic racism in nations.
    And, obviously, while the dynamics in each country bury, 
the issue of structural racism is not something that is only 
particular to the United States. You know, we have also spoken 
about how we make issues like the rights of women, the rights 
of indigenous, the rights of workers; foreign affairs issues, 
how the United States can leverage its position in the 
international organizations to press these issues even more.
    So, you know, we can start with the structural racism 
issue, but then also consider the other issues. And then, Ms. 
McDougall, if you want to go first, and then we will open it 
up.
    Ms. McDougall. Okay. Well, I think that it is very 
important--and it is very important to people of color in this 
country--to understand that structural racism has a 
transnational component, and it is everywhere. And that the 
U.N. represents an ability to join the forces and the issues on 
structural racism and come out with solutions that can be 
offered, suggested, what have you, to all, primarily through 
the committee that I have sat on and will again hopefully, the 
U.N. Committee on Racial Discrimination.
    And there are also certain very useful occasions that have 
been hosted--organized and hosted by the United Nations like 
the Third World Conference Against Racism and the--this year--
next year, sorry--this year, I believe, is the 20th 
anniversary. And there will be a number of gatherings and 
events around that.
    The U.N. really needs--I mean, the U.S. really needs to 
engage fully and vigorously with all of these efforts, because 
it States to other nations where there are now a tremendous 
number of, for example, African descendant populations, that 
the U.S. is actually on their side, and the U.S. needs to 
engage bilaterally with those countries about what we know 
about racism and solutions and what we know about the mistakes 
of trying to create solutions, and, you know, foster more 
exchanges of activist groups, of warriors, of advocates, from 
both countries.
    We have got--and we recognize it--a tremendous amount of 
knowledge, certainly a history of centuries of trying to, you 
know, approach this issue, one of the weightiest in America's 
history. And we are recognized in that regard.
    So, for instance, the statement that was just read by the 
U.S. and submitted to the 46th session of the Human Rights 
Council on countering racism. That was signed onto by 155 
countries. No other country could have achieved that.
    And so I think that what we need to do is to make it as 
much a part of our foreign policy as our domestic policy. But 
we have to be honest, and we have to be vigorous in both 
respects. So I think there are a lot of opportunities that have 
so far been missed by all administrations.
    And with leadership such as yourself in Congress, we might 
be able to do more in that regard.
    Mr. Castro. Thank you. Uh-huh?
    Mr. Hannum. Mr. Chairman, I would only add, since Professor 
McDougall is well more versed on these issues than I, but just 
one example I think of, you know, kind of the importance of 
some of these global bodies that we talked about and also our 
absence being a challenge.
    But, you know, in the last year, about a year ago, in the 
wake of George Floyd's death, you know, the U.N. Human Rights 
Council held a session on systemic racism and police violence, 
which was particularly important. Again, it is--you know, it
    [inaudible] of the Council's work. And it adopted a 
resolution calling for the High Commissioner for Human Rights 
to prepare a global report on the issue. And Human Rights 
Watch, other organizations, noted that this resolution was a 
step in the right direction, but also that it could have gone 
further.
    And I think this is an example of, you know, where if the 
U.S. had been there, just in general, when the U.S. is engaged, 
we can push the narrative. And so I think this is, again, an 
example why being part of the Council--and I would just say 
there have been a number of comments on the Council.
    I would just think it is important to say that we have now 
10 years of data to show that when the U.S. is engaged at the 
Council that it is much more likely to hold, you know, 
repressive regimes accountable and to push important reforms, 
whether it be--or important concepts that we believe in, 
whether it be LGBT issues, freedom of assembly, freedom of 
association. So the data is clear. We should be engaged.
    Thanks.
    Mr. Castro. All right, you all. Thank you all. I am going 
to go now to--it looks like Representative Issa got his camera 
on and everything, and we drove with him in the car for a 
minute, and now he is in his office. So, Darrell, please.
    Mr. Issa. Thank you. And I apologize. We all are 
multitasking, and on the West Coast I am afraid we are doing a 
lot of it.
    Two categories of questions. And the first one I think--
during the last Administration, there was an attempt to 
partially consolidate our competition to the Belt and Road 
with, you know, recognizing that, you know, you have EXIM Bank, 
TDA, and USAID. You have a series of, both in and out of the 
State Department, agencies that are part of foreign 
development.
    I would love to hear your thoughts on whether or not that 
should go further if we are going to have a U.S. united ability 
to bring dollars and U.S. companies and the like into 
successfully competing--to help develop the world against what, 
you know, I think can only be said China's self-serving 
development program.
    Mr. Dugan. If I may answer that. Thank you very much for 
that very thoughtful question, Congressman. And, indeed, China 
has tried to masquerade its ambitions on Belt and Road by 
saying that they are fully in support and that they are 
tantamount to advancing the U.N.'s strategic development goals, 
which is very much the Bible of U.N. development these days.
    So they are undercover of advancing those goals. They are, 
in fact, enriching their own infrastructure project around the 
world.
    Since we speak of international organizations today, we 
should note the international financial institutions among 
them, and China still is represented within those and 
considered a developing country for the sake of receiving 
benefits and resources and benefits of the doubt all around. So 
they play back very well, as I described earlier. They play 
within the rules, and they play them very hard, maybe not 
within the spirit but within the letter of the law. And we need 
to call them out when we think that they are taking advantage 
of the largesse and goodwill of an international liberal order 
that is rules-based and that assumes the best in others.
    I think we discovered that WTO needs a great deal of reform 
as well. That is another organization that--and thanks to China 
driving a truck through the WTO, once they were allowed in, 
they decided to take that big truck and back it up to the U.N. 
and load it up for Beijing.
    So I quote understand your question, and, yes, we need to 
reevaluate their qualification as a developing country status 
within the international financial institutions. We should not 
be subsidizing this grand scheme of theirs.
    Thank you.
    Mr. Hannum. And, Congressman, I might just add one other 
point there, and I would just say I think there is already a 
model that we know which works, which is, you know, countering 
Russia during the cold war. And, you know, President--former 
President Reagan, you know, talked about kind of peace through 
strength.
    And so one of the things we need to do--you know, what 
China has done--is invested significantly in economic 
development, in diplomacy. And the U.S., you know, only spends 
about 1 percent of the Federal affairs budget on diplomacy and 
development. Of course, we need to use our dollars wise.
    But during the 1980's, we spent far more as a percentage of 
GDP on diplomacy and development than we do now. So that is 
what China is doing. We know it worked, and so we absolutely 
need to support additional resources for State and USAID to--
you know, to compete.
    Mr. Issa. And I agree with that, and we will continue to 
push for that. But the question is more narrow. You know, the 
Chinese intervention around the world, and particularly in Sub-
Saharan Africa, is not a gift. Their programs--their 
development programs are much closer to something akin to EXIM 
Bank, leveraged with maybe Trade and Development Agency, 
because they are bringing in their companies. As you know, they 
are bringing in their own workers even.
    And they end up, in many, many cases owning these assets. 
But in all cases, it is not really foreign aid in the sense of 
any kind of a gift. And that is where they are competing 
successfully against us.
    You know, I will just take one that most people do not 
think about. If they put in a telephone system in a developing 
nation, there is no question in anyone's mind that that is a 
conduit of espionage back to Beijing. They have full 
transparency as to the government and private sector operations 
as a result, and that is separate from the large bridges, 
roads, and port projects that most people see. But they work 
hand in hand, and those programs dwarf all of our programs 
combined.
    And I do not think the American people are ever going to 
give a trillion dollars in foreign aid, but the question is, 
can we and should we look at a program--and I will just call it 
a trillion dollars--in potential loans and projects that are 
self-funding in the long run. Should that be a goal? Because 
right now, during the last Administration, as you know, EXIM 
Bank was effectively shut down and we were out of even the 
small amount of competition we had historically done.
    Ms. Otero. If I could--thank you for that question, if I 
may proceed with it. There is no question that China is 
repeating all the benefits of the last few years of our 
withdrawal from working in these organizations and in these 
manners, and has moved forward with its own set of priorities, 
with its own efforts in trade, and with its own way of getting 
countries--giving countries support, the response of countries 
supporting them in their own priorities, such as, for example, 
when they wanted to head up the intellectual property rights 
organization, they wanted total support.
    I think we need to remember that working through 
multilateral organizations, such as the World Bank and the 
regional banks, allows us also to be able to work with 
organizations that are leveraging billions of dollars from the 
global capital markets. And they are channeling these resources 
directly to the private sectors of existing developing 
countries.
    Part of our role in this work, of course, is to be able to 
help increase the--if you will, the punching of these 
multilateral organizations in spite of the problems that they 
may have, and not really just rely on member contributions. The 
global capital markets are the big players in here, because we 
can access enormous resources if we bring them forward.
    They are part of the world financial system, one that we 
dominate, and this is one way which we can avoid thinking about 
having to put forth a trillion investment ourselves.
    We can work with other countries, and we have the 
structures. And it is interesting that the IFC at the World 
Bank or the IDB invest in the international--Inter-American 
Development Bank. If you look at the resources that they are 
making available, they are one way to counter what China is 
doing.
    Second, our trade in the introduction of U.S. companies 
into the developing world relies on us being present, being at 
the table, paying our dues, and being able to open the space 
for them to counter the threat that China is proposing and 
gaining ground on.
    Mr. Castro. All right, you all. Thank you.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Castro. Thank you. I am going to go to Ms. Omar, and 
then we will go to the ranking member, Ms. Malliotakis. Ms. 
Omar.
    Ms. Omar. Thank you, Chairman.
    Ms. McDougall?
    Ms. McDougall. Yes.
    Ms. Omar. Sorry if I pronounced your name wrong. I think 
that a lot of Americans are actually sometimes really shocked 
when they learn about the number of human rights conventions 
that the United States is not a party to. In the last Congress, 
I introduced a resolution calling on the Senate to ratify the 
U.N. Convention on the Rights of the Child.
    We are the only country in the world to not have ratified 
that Convention, and there are many, many others that we 
haven't done so. What does this do to our credibility on human 
rights and asking other countries to abide by international 
obligations when we refuse to ratify these treaties and 
conventions ourselves?
    Ms. McDougall. Well, thank you for that question. You know, 
I think that it is a gaping hole in our credibility. We 
cannot--this is a system that actually the U.S., you know, 
initiated, as I said, through Eleanor Roosevelt.
    We very quickly decided that for reasons that I do not 
think most Americans know, nor would agree with if they did, 
that it did not serve all the purposes of structural racism 
actually in the country at the time that the decision was to 
not ratify most of these conventions.
    And as a result, it set up a system that hasn't allowed 
others through, such as the Convention on the Rights of the 
Child. I mean, who could be against that? We are the only ones 
that seem to be in the world.
    So, you know, I think that it is a--you know, it is a 
byproduct of a system in our country that has allowed--that has 
been created in many ways over a long period of time to protect 
those States that want to maintain structural rights for 
slavery and end structural racism. And so it has created power 
in the hands of a few.
    So the outcome is that, you know, in situations like the 
treaty system, which by and large operates in our favor across 
the board, why are we not part of the convention on the 
elimination of discrimination against women? What about the 
convention on the rights of disabled people that was very much 
modeled after our own widely popular national law?
    We need a total rethink in a different framework, a 
different maybe congressional framework----
    Ms. Omar. Right.
    Ms. McDougall [continuing]. For a decision as to how we 
enter these other treaties, human rights treaty systems.
    Ms. Omar. Yes. For the rights of the child, it was very 
fascinating to me because I was in Somalia, which was one of 
the last two countries besides us, and they ratified it in 
2016, and I was sent to celebrate that happening.
    And I remember sitting with our U.S. Ambassador, who was 
there and cheering this on, and who helped fund, you know, that 
campaign to make it happen, without us actually realizing that 
we ourselves have not participated in that.
    And then I wanted to maybe get your take on something that 
I think is a really good idea. I have been pleased to see that 
the Biden Administration is intending on reengaging with the 
U.N. Human Rights Council. I think that is the right thing to 
do.
    But the Council's detractors have a point, right? A lot of 
the countries that are a party to have appalling human rights 
records. And I am wondering what you think of our engagement 
and membership on the Human Rights Council to promote human 
rights.
    Ms. McDougall. Well, I am very much in favor of the Biden 
Administration reentering the Human Rights Council. It gives us 
an opportunity first of all to listen, to make sure we fully 
understand all of the arguments around the room, and then to 
make more informed choices, to form coalitions that we can work 
with, coalitions of other governments, that can maybe create 
better outcomes.
    But, I will tell you, you know, it is truly a dilemma, this 
question that the U.N. has had to tussle with for a long time. 
Is the worst outside or inside? Do you want them in a--you 
know, another dimension where they cannot hear what you have to 
say, or to be subject to whatever power you may coalesce 
against, you know, their practices, et cetera.
    I think it is a difficult decision. I think so far the U.N. 
has come down correct on the best possible side of that 
decision. But it does lend itself to--it is, you know, 
sometimes uncomfortable for, say, short-term outcomes.
    Ms. Omar. Thank you, Chairman. I would like to ask--when we 
do our second round, maybe I will get an opportunity to ask the 
other members the same questions.
    Mr. Hannum. And can I just--10 seconds, just one point 
there, Congresswoman, just to say in terms of the--in terms of 
engagement, what we have found is that countries--our 
adversaries are delighted when we are not part of the 
organization. They welcome--and there are examples, most 
notably Russia in 2016, where we helped mobilize countries to 
block them from joining. So we are much more likely to block 
countries with terrible track records by being engaged than 
not.
    Ms. Omar. Chairman, you are muted.
    Mr. Castro. Sorry. I saw Ms. Otero had her hand up, so I am 
going to go to her for a second. But after that, we are on our 
second round, so I am going to go to Representative Jacobs and 
then back to Representative Omar, unless somebody else has 
questions, other representatives.
    And then we are trying to close by noon Central--or, I am 
sorry, noon I guess Eastern. And so, you know, I am going to--
do not think me rude, but I may keep people on time as we are 
answering these questions. OK?
    Ms. Otero, your final comment on this question.
    Ms. Otero. Thank you. Actually, my comment was on the 
previous question, if you would permit me----
    Mr. Castro. Yes.
    Ms. Otero [continuing]. About children. I would say that, 
if the American people had any idea of the conditions in which 
children live around the world, as they are laborers with 
incredible levels of exploitation, as they are trafficked for 
sexual and other things, as they are working in the mines in 
the Congo and in other places, as they are put in refugee 
camps.
    And I have been several times to Dadaab on the Somalian 
border and to the Rohingya Bank camps where it is full of 
children. If we had, there would be enormous outrage, as there 
was when families were separated from their children in our 
southern border.
    And the American people I think need to have more 
information about these factors, and we need to make sure that 
we are able to communicate because the goodness of the American 
people, the kindness of their spirit, the values that they give 
to family and to their own children, are factors that we need 
to be able to demonstrate and the way in which we interact with 
other countries and in the conventions that we sign and we do 
not sign.
    And so I think these are really important concerns that we 
also need to build into the way in which we project our 
country's efforts in the rest of the world.
    Mr. Castro. Thank you. Thank you, Ms. Otero.
    All right, you all. So I think our final two questions will 
be Representative Jacobs and then Representative Omar, and then 
I will close. I would just ask everybody to be on the grid view 
and look at the 5-minute timer for these last two questions, 
all right, so that we can close on time.
    Representative Jacobs.
    Ms. Jacobs. Thank you, Mr. Chair.
    So my question is for Ms. Otero and Mr. Hannum. I was 
wondering if you could talk a little bit about what you think 
the most important reforms would be to the United Nations, 
whether that is the Security Council reforms that I kind of 
mentioned in my previous questioning or otherwise. But in terms 
of really being able to address the kinds of challenges we are 
facing now, what you think the most impactful reforms might be.
    Ms. Otero. Please, Mr. Hannum, go ahead, since you live----
    Mr. Hannum. Sure.
    Ms. Otero [continuing]. And breathe it every day.
    Mr. Hannum. Yes. Happy to. Congresswoman, let me start I 
guess with an issue I think near and dear to your heart, which 
is around peace-building. I mean, this is something that the 
Secretary General feels very strongly about because there is 
just, of course, quite a bit of data about how much--you know, 
if you can invest in peace-building efforts, how much it saves 
you down the road.
    The problem is, as we all know, you know, people 
generally--it is hard to do kind of upstream efforts. It is 
kind of only--only when a crisis is coming that there is an 
impetus to do more. And so I think there--I mean, this is where 
I think U.S. engagement could be particularly important and, 
quite honestly, funding. And, I mean, again, the data shows how 
much an investment in peace-building would save down the line.
    So just looking at 2020, I mean, there is a peace-building 
fund which mobilized about $180 million. But those resources 
are now depleted and must be finished. So, one, of course, that 
is significant. But in the--you know, when we are talking about 
the 20 trillion that has been lost because of COVID, and how 
that has exacerbated extreme poverty, and you have seen the 
first increases in 20-plus years, there needs to be more 
investments along these lines. It is critically important.
    And then I would also say, just in terms of COVID--cannot 
talk in 2021 without talking about COVID--there has got to be 
U.S. and others mobilizing support around equitable vaccine 
distribution. I mean, everyone is talking about vaccines, but 
also many--a number of countries--I mean, we still need to make 
sure countries have personal protective equipment and 
therapeutics.
    And so there needs to be right now, you know, a coalition 
that comes together. Seventy-five countries haven't even gotten 
a single dose. We need to come together. The U.S. has begun 
this, which is welcome, but need to come together and support 
this. We know the economic returns, but the health and 
humanitarian reasons are there. So I would say kind of peace-
building and then an all-hands-on-deck around COVID.
    Ms. Otero. I would only add to this that, you know, when we 
think about the U.N. writ large and we say, oh my gosh, you 
know, why should we put any resources in that; you know, it 
just goes into a black hole and we cannot really see them. In 
fact, these institutions that we have created and that have 
operated for 40 years or more do need reform, and reform does 
need resources.
    And I think it is very important to be able to take each 
piece of the organizations--for example, if you just use the 
U.N. High Commission on Refugees, and you look at what has 
happened to humanitarian aid, to displaced people, to refugees, 
just in the last few years, they have grown to be more than 80 
million people that are displaced around the world.
    How can we create reforms in the structure that we use to 
address humanitarian aid? It begins with the U.N.
    And so my suggestion is that we look at each arm of the 
United Nations, and we put resources into figuring out the best 
ways in which we can reform them. And it is easier to do this 
with those that are delivering services to the vulnerable and 
to all the populations around the world that need them. It is 
harder to do this with the U.N. Security Council, but also 
necessary.
    So I think we really need to think about reform as an 
activity that requires our leadership and resources from 
everywhere to be able to carry out.
    Mr. Dugan. If I may add, just briefly, on that. This year 
is the selection of the Secretary General. It is a wonderful 
opportunity for us to come forward with our vision of the 
organization, with our need for accountability as a management 
tool, and with our plans to beef up our team as----
    Mr. Castro. Mr. Dugan, I have to interrupt you. We are out 
of time in this question, and I have got to keep us on time, so 
that we finish by noon Eastern. But you want to make 5 seconds 
of closing remarks there on that question?
    Mr. Dugan. Yes, just to say that we have a unique 
opportunity this year with the selection of the Secretary 
General to broadcast what we expect and what we need from the 
organization and to commit our resources to creating a team 
that understands and works the organization well on the ground.
    Mr. Castro. Sure. Okay. Thank you. Thank you for those 
remarks.
    It looks like Congressman Issa is back on, and he has got--
you have a question, Darrell, I assume? I think you are on 
mute. But, Darrell, I am going to keep everybody to the 5 
minutes.
    So, please, panelists and members, watch that 5-minute 
clock. Let's stick to the 5 minutes. So we will go with 
Representative Issa, then Representative Omar, our last 
questioning, and then I will close real quick and we will be 
done.
    All right. Representative Issa.
    Mr. Issa. Yes. I am trying to unmute.
    Mr. Castro. There you go. There you go.
    Mr. Issa. Excellent. Thank you. I want to followup on the 
80 million figure of refugees and asylum allocation. I do not 
think--I would be kidding you if I said that there was an 
interesting ambiguity going on right now at our southern 
border.
    We receive hundreds of thousands of applications for asylum 
every month from what is disproportionately found after the 
fact to be economic refugees, people seeking a better life at 
our southern border. Less than 5 percent of them will be 
granted asylum, but that will still dwarf the amount of asylums 
that--and/or refugee, you know, visas that will be granted to 
people in those tens of millions of refugee camps around the 
world.
    How would you propose that we right size or rectify the 
fact that these camps have become places that do not--people do 
not leave them as a percentage, they are becoming more and more 
permanent camps, and the world in general is taking--and 
including the U.S.--is taking a relatively small portion of 
these refugees, and their host--their former countries are in 
many cases, even after conflict, are not taking them back.
    How would you suggest that we make a major overhaul in what 
has become a very large and ever-growing problem of permanent 
refugees and the lack of asylum and refugee allocations by 
member countries of the United Nations, us included?
    Ms. Otero. Thank you, Congressman, for that incredibly 
complex and important question that I do not know if we can 
answer fully here. However, let me just add one thing. One is 
that, for example, if we look at our southern border, the 
countries that people are coming from are those countries that 
are the poorest, the ones that offer the least opportunities 
for people, but are also the ones that are mired in violence 
and in corruption.
    So you might think you have an economic refugee. But if 
that economic refugee is one who is in his or her little place, 
has a tiny little business, that then has to pay a weekly 
amount to someone that is threatening them to do that, or a 
child is----
    Mr. Issa. I apologize. I wasn't implying that. I was simply 
using the ratio that our courts have found of those who come 
versus those who are granted. And the bigger question, which is 
these countries do not have, for the most part, those 80 
million people that are in refugee camps that are becoming 
permanent.
    I am not disagreeing that we have a problem south of our 
border and that we need to engage. I am simply saying that that 
is getting the focus of the media, both here and around the 
world, this permanent problem. I visited the camps in Jordan, 
in Lebanon, and, you know, some of them dating back to 1948, 
others more recent. And as I have seen these grow, I have 
become concerned that we have gotten good at allocating 
resources to refugees but not very good at finding solutions to 
their status.
    Ms. Otero. Just to add to that, there is no question that 
one of the reasons that these camps have a protracted presence 
in them is because conflict continues. Somalia is a perfectly 
good example. Dadaab Camp between Kenya and Somalia is the 
second largest city in Kenya. However, the Somalians, their 
country is still in upheaval and have nowhere to be able to go.
    And so you are right, Congressman, there are these 
situations, and I have meant people in refugees camps that were 
born in refugee camps and that have lived and learned what they 
could there. So I do think that those camps reflect the 
enormous displacement caused by conflict around the world. And, 
again, this is one of the areas that is so connected to the 
role that we play in developing countries and in the overall 
global scene.
    Mr. Castro. Thank you. All right. Thank you.
    Mr. Issa. I want to--I will just quickly in closing say, 
you know, some of the camps I visited--the camps that have been 
there since the 1940's--reflect the fact that it is not about 
one Administration. I do think that this committee needs to 
take a look at the permanent refugee status around the world 
and to help develop a plan to change that.
    Mr. Castro. Thank you. Thank you, Congressman Issa.
    And then our final question from Congresswoman Omar.
    Ms. Omar. Well, first of all, I would like to thank 
Congressman Issa for that question. I and my family sat in a 
refugee camp in Kenya called Utango that is closed now for 4 
years waiting for asylum. I was one of the very fortunate ones 
to have gotten that.
    I did go back in 2016, 2011, to the Somali-Kenyan border 
and was in the Dadaab and remember seeing young people who were 
in that Utango camp with me who did not get to relocate and 
start--get an opportunity to get asylum elsewhere but went back 
into another refugee camp. And they--as I have had children, 
had an opportunity here in the United States, got an education, 
they have lived in that camp and have had their children in 
those refugee camps.
    And so, yes, we do have a responsibility and should have a 
conversation. It was devastating to watch the last 4 years our 
numbers of admitting refugees dwindle to like 18,000, so I am 
delighted to hear that we might go up to 125,000. So that is 
part of our responsibility, and I do hope the Congressmen will 
join us in advocating for those increased numbers.
    But I wanted to go back to Ms. McDougall. Earlier you 
mentioned something in regards to racial justice, and I know 
that a lot of activists in the United States, from Malcolm X to 
Puerto Rican independent activists, have drawn on the U.N. 
system and human rights in their own struggles here at home. 
What do you see as the relationship between the international 
community and our struggle for racial justice here?
    Ms. McDougall. Well, I think it is, first and foremost, a 
continuing inspiration. And it leads people, as it lead me to 
believe when I was young and growing up in Jim Crow south, that 
out in the international community there are different rules, 
rules about equality.
    And as W.E.B. Du Bois saw the U.N and said, ``This is going 
to create new forums for African Americans to plead their case 
for equality.'' I think our challenge is to make sure it is 
that, in fact, and that is why I do the work that I have done 
with the Racism Committee, Anti-Racism Committee, and as a 
special rapporteur on minorities around the world.
    Are we living up to these hopes of being the--of speaking 
to and supporting the claims for equality of people, not only 
black people in the United States but minorities around the 
world? That is our responsibility, and we have got to 
constantly question if the U.N. is fit for that purpose.
    Ms. Omar. Appreciate that. Thank you, Chairman. I yield 
back.
    Mr. Castro. Thank you, Congresswoman Omar. And thank you to 
our witnesses for your testimony, and to our Members of 
Congress for all of your questions.
    I have just some closing remarks real quick, and then we 
will conclude. You know, after today's testimony, it should be 
clearer than ever to this Congress that international 
organizations and our participation in them play an 
indispensable role in advancing American values and defending 
American interests.
    We were instrumental in the creation of these institutions 
of the international order. We must be just as instrumental in 
leading them through the 21st century. And it is also clear 
that if we do not, other nations will, to our detriment and I 
believe to the detriment of the world.
    Working through international organizations, even when 
acting alone might be quicker or more advantageous in the short 
term, will make our global leadership stronger and more 
impactful in the long run.
    And with that, I want to say again thank you to all of our 
very distinguished panelists, our witnesses, to the Members of 
Congress who participated.
    We are adjourned. Thank you all. Take care, everybody.
    [Whereupon, at 12:02 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
